1

Certificate of Word Count Compliance
IN THE UNITED STATES SUPREME COURT
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Telephone: 202-479-3000
S.Ct. No. 20200071 -CA
DANESH RAHIMI, M.D.,
PETITIONER.

v.
UTAH STATE COURTS
RESPONDENT.

PETITION FOR WRIT OF CERTIORARI
Pursuant to Rule 33.1(h) of the Rules of this Court, I certify that the
accompanying writ of certiorari, which was prepared using Google documents,
contains 7100 words, 42575 characters, 35149 characters excluding spaces,
excluding the parts of the document that are exempted by Rule 33.1(d) “The
word limits do not include the questions pre- sented, the list of parties and the
corporate disclosure state- ment, the table of contents, the table of cited
authorities, the listing of counsel at the end of the document, or any appen­
dix..” This certificate was prepared in reliance on the word-count function of the
word- processing system (Google Docs) used to prepare the document.
I declare under penalty of perjury that the foregoing is true and correct. Dated
this 30th day of May 2021.
Danesh Rahimi
1466 Chandler Drive
Salt Lake City, UT, 84103
(801) 573-8191
daneshrahimimd@gmail.com
/

DatediMay 31, 2021.

Is/ Danesh Rahimi
Dr. Danesh Rahimi, Appell

RECEIVED
JUN -8 2021
1

